Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    MEDICARE COMPLIANCE
          REVIEW OF
   MERCY MEDICAL CENTER IN
         MASON CITY
     FOR CALENDAR YEARS
        2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      November 2013
                                                      A-07-12-05030
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Mercy Medical Center in Mason City did not fully comply with Medicare requirements for
billing inpatient and outpatient services, resulting in overpayments of approximately $224,000
over more than 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Mercy Medical Center in Mason City (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 245-bed acute care hospital located in Mason City, Iowa. Medicare paid the
Hospital approximately $158 million for 12,634 inpatient and 276,636 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $2,178,364 in Medicare payments to the Hospital for 145 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 66
inpatient and 79 outpatient claims. Of the 145 claims, 136 claims had dates of service in CYs
2010 or 2011, and 9 claims (involving inpatient and outpatient manufacturer credits for replaced
medical devices) had dates of service in CY 2009.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 98 of the 145 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 47 claims, resulting in overpayments of $223,627 for CYs
2010 and 2011 (38 claims) and CY 2009 (9 claims). Specifically, 26 inpatient claims had billing


Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)              i
errors, resulting in overpayments of $165,037, and 21 outpatient claims had billing errors,
resulting in overpayments of $58,590. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $223,627, consisting of $165,037 in overpayments for
        26 incorrectly billed inpatient claims and $58,590 in overpayments for 21 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
described corrective actions that it had taken or was taking. The Hospital stated that it had
rebilled many of the claims and was in the process of determining the remaining balance that
needed to be refunded or rebilled.




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)              ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Mercy Medical Center in Mason City ...........................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrectly Billed as Inpatient .......................................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................4
            Incorrectly Billed Diagnosis-Related Group Codes ......................................................5

       Billing Errors Associated With Outpatient Claims................................................................5
             Manufacturer Credits for Replaced Medical Devices Not Reported ............................5
             Insufficiently Documented Procedures .........................................................................6
             Incorrectly Billed Evaluation and Management Services .............................................6

RECOMMENDATIONS ...............................................................................................................6

AUDITEE COMMENTS...............................................................................................................6

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................7

        B: Results of Review by Risk Area .....................................................................................9

        C: Auditee Comments ........................................................................................................10




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                                                             iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Mercy Medical Center in Mason City (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient short stays,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    inpatient same-day discharges and readmissions,

    •    inpatient and outpatient claims paid in excess of charges,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient hospital-acquired conditions,

    •    outpatient claims paid in excess of $25,000,

    •    outpatient claims billed with modifier -25,

    •    outpatient claims billed with other modifiers, and

    •    outpatient claims billed with Doxorubicin Hydrochloride.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).



1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                             2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Mercy Medical Center in Mason City

The Hospital is a 245-bed acute care hospital located in Mason City, Iowa. Medicare paid the
Hospital approximately $158 million for 12,634 inpatient and 276,636 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,178,364 in Medicare payments to the Hospital for 145 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 66
inpatient and 79 outpatient claims. Of the 145 claims, 136 claims had dates of service in CYs
2010 or 2011, and 9 claims (involving inpatient and outpatient manufacturer credits for replaced
medical devices) had dates of service in CY 2009. 2 We focused our review on the risk areas that
we had identified as a result of previous OIG reviews at other hospitals. We evaluated
compliance with selected billing requirements but did not use medical review to determine
whether the services were medically necessary. This report focuses on selected risk areas and
does not represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                   FINDINGS

The Hospital complied with Medicare billing requirements for 98 of the 145 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 47 claims, resulting in overpayments of $223,627 for CYs
2010 and 2011 (38 claims) and CY 2009 (9 claims). Specifically, 26 inpatient claims had billing
errors, resulting in overpayments of $165,037, and 21 outpatient claims had billing errors,
resulting in overpayments of $58,590. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors. For the results of our review by risk area, see Appendix B.


2
 We selected these nine claims for review because the risk area that involves manufacturer credits for replaced
medical devices has a high risk of billing errors.


Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                                  3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 26 of 66 sampled inpatient claims that we reviewed.
These errors resulted in overpayments of $165,037.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

For 12 out of 66 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital attributed these overpayments to the complexity associated with accurate assignment of
level of care (inpatient as opposed to outpatient). As a result of these errors, the Hospital
received overpayments of $64,425. 3

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 8 out of 66 selected claims, the Hospital received reportable medical device credits from
manufacturers but did not adjust its inpatient claims with the appropriate condition and value
codes to reduce payment as required. (Of the eight claims, six had dates of service in CY 2009
and two had dates of service in CYs 2010 and 2011). These overpayments occurred because the
Hospital did not have adequate controls to report the appropriate condition and value codes in
order to accurately reflect credits it had received from manufacturers. As a result of these errors,
the Hospital received overpayments of $40,959.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the

3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before the issuance of our report.


Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                                4
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay on a single
        claim.

For 4 out of 66 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions that occurred within the same day. The Hospital attributed these overpayments
to human error. As a result of these errors, the Hospital received overpayments of $31,980.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). In addition, the Manual states: “In order
to be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 2 out of 66 selected claims, the Hospital billed Medicare for incorrect DRG codes that,
specifically, were not supported in the medical records. The Hospital attributed these
overpayments to human error. As a result of these errors, the Hospital received overpayments of
$27,673.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 21 of 79 sampled outpatient claims that we
reviewed. These errors resulted in overpayments of $58,590.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 4

For 8 out of 79 selected claims, the Hospital received full credit for replaced medical devices but
did not report the “FB” modifier and reduced charges on its claims. (Of the eight claims, three
had dates of service in CY 2009 and five had dates of service in CYs 2010 and 2011). These
overpayments occurred because the Hospital did not have adequate controls to report the
appropriate modifier and charges to reflect credits received from manufacturers. As a result of
these errors, the Hospital received overpayments of $56,373.

4
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                        5
Insufficiently Documented Procedures

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

For 2 out of 79 selected claims, the Hospital submitted the claims to Medicare with unsupported
HCPCS codes. The Hospital attributed these overpayments to coding errors. As a result of these
errors, the Hospital received overpayments of $1,858.

Incorrectly Billed Evaluation and Management Services

The Manual states that a Medicare contractor pays for an evaluation and management (E&M)
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure (chapter 12, § 30.6.6(B)).

For 11 out of 79 selected claims, the Hospital incorrectly billed Medicare for E&M services that
were not significant, not separately identifiable, and not above and beyond the usual preoperative
and postoperative work of the procedure. The Hospital attributed these overpayments to human
error. As a result of these errors, the Hospital received overpayments of $359.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $223,627, consisting of $165,037 in overpayments for
        26 incorrectly billed inpatient claims and $58,590 in overpayments for 21 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                      AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
described corrective actions that it had taken or was taking. The Hospital stated that it had
rebilled many of the claims and was in the process of determining the remaining balance that
needed to be refunded or rebilled.

The Hospital’s comments appear in their entirety as Appendix C.




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)               6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,178,364 in Medicare payments to the Hospital for 145 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 66
inpatient and 79 outpatient claims. Of the 145 claims, 136 claims had dates of service in CYs
2010 or 2011, and 9 claims (involving inpatient and outpatient manufacturer credits for replaced
medical devices) had dates of service in CY 2009 (see footnote 2).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements, but did
not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from July 2012 to August 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replacement medical devices from the device
        manufacturers for CYs 2009 through 2011;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 145 claims (66 inpatient and 79 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                 7
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials on August 29, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                 8
                           APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                                    Claims
                                                                                  Value of           With            Value of
                                                              Selected            Selected          Over-             Over-
                    Risk Area                                 Claims              Claims           payments          payments
Inpatient

Short Stays                                                       30                 $158,348           12                   $64,425
Manufacturer Credits for Replaced Medical
                                                                  8                    194,991           8                    40,959
Devices
Same-Day Discharges and Readmissions                              6                     55,160           4                    31,980

Claims Paid in Excess of Charges                                  4                    104,493           1                    18,466
Claims Billed With High Severity Level
                                                                  16                   683,214           1                     9,207
Diagnosis-Related Group Codes
Hospital-Acquired Conditions                                      2                     34,892           0                        0

 Inpatient Totals                                                 66               $1,231,098           26                  $165,037


Outpatient
Manufacturer Credits for Replaced Medical
                                                                  10                   $86,008           8                   $56,373
Devices
Claims Paid in Excess of Charges                                  10                    13,705           1                     1,207

Claims Paid in Excess of $25,000                                  12                   399,170           1                      651

Claims Billed With Modifier -25                                   17                   235,771          11                      359

Claims Billed With Other Modifiers                                27                   205,208           0                        0

Claims Billed With Doxorubicin Hydrochloride                      3                       7,404          0                        0

 Outpatient Totals                                                79                 $947,266           21                   $58,590


 Inpatient and Outpatient Totals                                 145               $2,178,364           47                  $223,627

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at the Hospital. Because we have organized the information differently, the information in
       the individual risk areas in this table does not match precisely with this report’s findings.




       Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                               9
                                        APPENDIX C: AUDITEE COMMENTS



                                                                                                             1000 4th Street SW




    t~~~ffXENTER
                                                                                                            Mason City, /A 5040 1
                                                                                                                  641.428.7000




     NORTH IOWA
     A member of Mercy Health Network

                       Report Number A-07-12-05030

                       Patrick Cogley
                       Regional Inspector General for Audit services
                       Office of Audit Services Region VII
                       601 East 121h Street Room 0429
                       Kansas City, MO 64106

                       Dr Patrick Cogley,

                       We have received our Draft Report for Medicare Compliance Review of Mercy Medical
                       Center in Mason City for Calendar Years 2010 and 2011. The Report # is A-07-12-
                       05030.

                       As an outcome of the report, there were 2 recommendations;

                       1) Recommendation: Refund to the Medicare contractor $223,627, consisting of
                       $165,037 in overpayments for 26 incorrectly billed inpatient claims and $58,590 in
                       overpayments for 21 incorrectly bilh:;d outpatient claims.

                      Our Response is; We concur with this recommendation. Many of these claims were
                      re-billed as part of the audit process while working with the auditors. We are in the
                      process of determining the remaining balance that needs to be refunded or rebilled.

                      2) Recommendation: Strengthen controls to ensure full compliance with Medicare
                      requirements.

                      Our Response is; We concur with this recommendation. We continue to implement
                      the con·ections, audits and further controls, as defined in our responses each Internal
                      Control Questionnaire ( ICQ) response dated July of2013.

                      Please Jet me know of questions, or anything else you need from us.




                      Kurt Harle
                      Compliance Officer
                      Mercy Medical Center-NI
                      641-428-7298




Medicare Compliance Review of Mercy Medical Center in Mason City (A-07-12-05030)                                                    10
